Audit of USAID/Honduras’ Executive Office
Operations

Audit Report No. 1-522-02-013-P

September 12, 2002




                San Salvador, El Salvador
RIG/San Salvador


September 12, 2002

MEMORANDUM

FOR:               USAID/Honduras Director, Paul Tuebner

FROM:              Regional Inspector General, Timothy E. Cox

SUBJECT:           Audit of USAID/Honduras’ Executive Office Operations (Report
                   No. 1-522-02-013-P)


This memorandum is our draft on the subject audit.

Management’s comments on the draft report were considered in preparing this
report. They are included for your reference in Appendix II.

This report contains 11 recommendations. A management decision has been made
for Recommendation Nos. 1, 2, and 4 through 11. The Office of Management
Planning and Innovation will make a determination of final action regarding
Recommendation Nos. 1, 2, 7, 9, and 11 after they have been completely
implemented. Final action has been taken on Recommendation Nos. 4, 5, 6, 8 and
10 and they will be closed upon issuance of the report. Recommendation Nos. 3
remains open.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                              4
Contents
           Background                                                      5

           Audit Objective                                                 6

           Audit Findings                                                  6

                  Are USAID/Honduras’ Executive Office operations
                  performed in accordance with USAID policies and
                  procedures and applicable laws and regulations?          6

                         Improved Procurement Planning Is Needed for
                         Expendable Property                               8

                         Mission Should Evaluate Whether Purchased
                         Office Space Would Be More Economical             8

                         Acceptable Utility Usage Rates for Residences
                         Should be Established                             9

                         Separation of Duties Needed for Supply Room and
                         Leases                                            9

                         Auction Proceeds Should Be Immediately
                         Deposited in Bank Accounts                        10

                         Annual Physical Inventory of Supply Room
                         Should Be Done                                    10

                         Motor Pool Operations Need More Effective
                         Management                                        11

                         Mission Employment Panels Were Not
                         Representative                                    11

                         Better Monitoring Needed for Personal Phone
                         Usage                                             12

                         Cellular Phone Policy Should be Reviewed          12

                         Policy for Calling Card Usage Should Be
                         Established                                       13




                                                                                2
Management Comments and Our Evaluation   14

Appendix I - Scope and Methodology       15

Appendix II - Management Comments        20




                                              3
Summary of   The Regional Inspector General/San Salvador added this audit to its fiscal year 2002
             audit plan at the request of USAID/Honduras management. RIG/San Salvador
Results
             performed this audit to determine whether USAID/Honduras performed its
             Executive Office (EXO) operations in accordance with USAID policies and
             applicable laws and regulations (see page 6). The audit covered EXO operations in
             the areas of (1) procurement, (2) lease management, (3) warehouse and supply room
             management, (4) motor pool, and (5) personnel. The audit found that the mission
             performed many Executive Office functions in accordance with USAID policies and
             applicable laws and regulations:

             •   In the area of procurement, the audit found that: there were appropriate
                 procurement specifications and competition, as required.

             •   For the mission’s management of leases, the audit found that basic
                 requirements for leases were met regarding (a) residency of landlords, (b)
                 security inspections of prospective leased properties, (c) landlord-paid
                 security upgrades, (d) periods of leases, and (e) housing assignments.

             •   With respect to the warehouse, in general, the warehouse was secure, good
                 storage practices were followed, physical counts showed that inventory
                 records and bin cards were accurate. Also, with respect to the supply room,
                 the supply room was secure and good storage practices were generally
                 followed.

             •   In the motor pool, trip reports were filed and vehicle maintenance was
                 regularly performed.

             •   Regarding personnel management, the mission was revising and updating its
                 hiring and personnel policies and procedures (see pages 6 and 7).

             However, the audit also found that:

             •   Procurement planning for expendable property needed improvement.

             •   The possibility of purchasing (versus leasing) office space should be evaluated.

             •   Utility expenses were not being effectively monitored.

             •   There was inadequate separation of duties for the supply room and leases.

             •   Auction proceeds should be immediately deposited in a bank account.

             •   An annual supply room inventory was needed.



                                                                                              4
             •   Motor pool management needed improvement.

             •   Personnel hiring boards only included Foreign Service National (FSN)
                 personnel.

             •   Better monitoring of personal usage of office phones was needed.

             •   Cellular phone policy needed review.

             •   Long distance calling card usage needed review (see pages 8 through 14).

             The overall cause of these problems was an absence of adequate supervision.
             This resulted in normal USAID procurement and management policies and
             procedures not being followed.

             The report contains recommendations that USAID/Honduras establish mission
             policies which will establish adequate management controls, and establish
             appropriate separation of duties where needed.

             USAID/Honduras agreed with all the report’s findings. The mission’s comments
             are included in their entirety as Appendix II.



Background   USAID/Honduras’ Executive Office (EXO) is the focal point for administrative
             operations at the mission. The EXO staff includes an Executive Officer, and
             individual specialists that supervise personnel, procurement, leases and
             maintenance, warehouse and supply room, and motor pool.

             This report focuses on USAID/Honduras’ performance of EXO operations for the
             period from April 1, 2001 through March 31, 2002. During this period, the EXO
             managed (1) procurements valued at $1.1 million, 1 (2) leases and maintenance for
             23 homes, (3) assets in the warehouse valued at $5.8 million, (4) a mission
             workforce of 101 personnel, and (5) a motor pool fleet of 22 cars.

             USAID/Honduras has been without a permanent Executive Officer for the last two
             years. During this period, these responsibilities were performed by three personal
             service contractors that served as acting Executive Officer, and by other mission
             officers substituting as Executive Officer. In light of the changes in management
             during this period, the mission requested that RIG/San Salvador conduct an audit to
             determine if proper procedures were being followed for EXO operations. The audit
             covered EXO operations in (1) procurement, (2) lease management, (3) warehouse
             and supply room property management, (4) motor pool, and (5) personnel.

             1
              This includes $142,200 in procurements funded by trust funds (trust funds are local currency
             accounts owned by the host country, and used to support USAID operations). These funds were
             converted at the rate of 16 lempiras per U.S dollar for audit purposes.


                                                                                                             5
Audit Objective   The Regional Inspector General/San Salvador added this audit to its fiscal year 2002
                  audit plan at the request of USAID/Honduras. The audit was performed to answer
                  the following audit objective:

                  •   Are USAID/Honduras’ Executive Office operations performed in accordance
                      with USAID policies and procedures and applicable laws and regulations?

                  Appendix I describes the audit scope and methodology.



Audit Findings    Are USAID/Honduras’ Executive Office operations performed in accordance
                  with USAID policies and procedures and applicable laws and regulations?

                  USAID/Honduras’ Executive Office (EXO) operations were performed in
                  accordance with USAID policies and procedures and applicable laws and
                  regulations except for the problem areas noted in the following sections of the
                  report.

                  The audit covered EXO operations in (1) procurement, (2) lease management, (3)
                  warehouse and supply room management, (4) motor pool, and (5) personnel. The
                  audit showed that many EXO functions were performed correctly:

                  •   In the area of procurement, the audit found that (a) appropriate specifications
                      were provided for procurements, (b) required competition in the procurement
                      process was obtained, (c) documentation to support the use of simplified
                      acquisition was provided, (d) the purchase order forms were correctly prepared
                      and approved, and (e) there was evidence of receipt of items procured.

                  •   For the mission’s management of leases, the audit found that (a) landlords
                      were host country residents and no off-shore lease payments were made, (b)
                      each prospective leased property underwent an inspection by the Regional
                      Security Office prior to the execution of the lease, (c) required security
                      upgrades were paid by the landlord and a condition of the execution of leases,
                      (d) period of the leases were for five-year terms, and (e) employees were
                      assigned housing according to their rank and family size.

                  •   With respect to the warehouse: (a) inventory records were in agreement with
                      the physical inventory count, (b) the warehouse was secure, (c) good storage
                      practices were generally followed, and (d) bin cards were used and were
                      accurate. Also, with respect to the supply room: (a) the supply room was
                      secure and (b) good storage practices were generally followed.




                                                                                                    6
•   In the motor pool, trip reports were filed and vehicle maintenance was
    regularly performed.

•   With respect to the mission’s personnel management, the mission was
    revising and updating its hiring and personnel policies and procedures.

However, improvements were needed in several areas, as explained in the following
sections of the report.

•   Procurement planning for expendable property needed improvement.

•   The mission needed to determine whether purchasing office space would be
    more economical than leasing.

•   The mission has not determined acceptable residential utility usage rates and
    does not have a policy of notifying employees when there are unreasonably large
    increases in utility usage.

•   There was not an appropriate separation of duties for the supply room and leases.

•   Auction proceeds needed to be immediately deposited into bank accounts.

•   In the supply room for expendable property there were disparities between the
    physical stock on hand and inventory records, and a physical inventory was
    needed.

•   Required motor pool vehicle reports were not being prepared.

•   Approximately half of personnel hiring boards during the audited period only
    included Foreign Service National (FSN) personnel.

•   Personal use of office phones needed better monitoring.

•   Cellular phone policy needed review.

•   Changes were needed in long distance phone services.

Improved Procurement Planning
Is Needed for Expendable Property

The Supply Room Supervisor stated that he makes expendable property orders
every six months, based upon his observation of inventory levels. However, two
of the 21 categories that were judgmentally selected showed the need for
improved procurement planning. Excess property auction records showed that the
mission purchased 31 tires that were later sold at auction for a total of $1,181, an
average of $38 each, while purchase prices for tires ranged from $74 to $119. In


                                                                                7
addition, 50 printer cartridges were purchased from a local supplier in Honduras
in September 2001 at a cost of $4,625. But, at the time of the audit (seven months
later in April 2002) a physical inventory showed that 67 printer cartridges were
still in inventory. This shows that this order exceeded six months’ needs. The
work order used to request this procurement did not show mission usage rates to
justify this procurement quantity. This occurred because mission purchases were
not based upon an assessment of usage rates. As a result, mission funds were
used to purchase items that were not immediately needed and subsequently sold at
a loss, an inefficient usage of USAID resources.

       Recommendation No. 1: We recommend that
       USAID/Honduras use mission usage rates to establish
       inventory threshold levels for making orders of expendable
       property.

Mission Should Evaluate
Whether Purchased Office
Space Would Be More Economical

The Federal Manager’s Financial Integrity Act states that management must ensure
that funds, property, and other assets are safeguarded against waste. The mission
currently leases a 55,159 square foot building that it has occupied since 1982. The
current lease is for nine years from September 1, 2000 to August 31, 2009, and the
lease terms permit the mission to terminate the lease at any time with 30 days’
notice. Total payments for the entire nine-year term of the lease will equal
$3,834,736, not including an optional nine-year extension which, if exercised, would
bring total payments under the lease to $8,417,599. The lease makes the mission
responsible for all regular maintenance, excluding elevator maintenance, thus
imposing responsibilities similar to those that the mission would have if it owned the
building.

The mission is currently downsizing due to the completion of the Hurricane Mitch
Reconstruction program and, therefore, must reevaluate its space requirements in
light of these changes. The mission has not explicitly examined the relative costs
and benefits of alternative office space that could be constructed, purchased, or
leased in Tegucigalpa. As a result, USAID may be paying more than necessary for
the office space that it needs.

       Recommendation No. 2: We recommend that USAID/Honduras
       perform a cost analysis regarding the alternative costs of
       constructing, purchasing, or leasing office space in Tegucigalpa,
       Honduras based upon its projected space requirements after
       downsizing, and determine if moving to alternative space would
       be more cost effective than remaining in its present space.




                                                                                 8
Acceptable Utility Usage Rates
for Residences Should Be Established

Foreign Affairs Manual (FAM) section 6 FAM 717.9-2 Residential Cost Controls
for Utilities states that the Executive Officer for USAID is responsible for
ensuring that costs of utilities for U.S. Government-held residences are carefully
controlled and held to reasonable levels. Although the mission kept a record of
utility costs for each residence, usage rates by household were not tracked for
highs and lows to track variances and establish acceptable use rates. Also, the
mission did not have a policy for notifying employees in the event of large
increases in utility usage. This occurred because mission employees were not
aware that this should be done. As a result, excess utility usage, which could be
adjusted by changes in employee habits, or which could be the result of problems
with the house or utility theft, may not be corrected.

       Recommendation No. 3: We recommend that
       USAID/Honduras track employee utility usage, establish
       normal usage rates, and notify employees when usage exceeds
       the established normal range.

Separation of Duties Needed
for Supply Room and Leases
The Foreign Affairs Manual section 6 FAM 221.2 Personal Property
Management for Posts Abroad – Delegated Responsibilities – Separation of
Duties – states “ A sound management control system must ensure that no one
individual is in the position to control all aspects of any transaction affecting
the receipt, storage, or disposition of expendable or non-expendable personal
property. In the absence of a desired separation of duties, the accountable
property officer shall conduct a management review at least twice a year.
Duties which are to be separated whenever possible are procurement,
receiving, payment, property record keeping, and conducting an annual
physical inventory.” In USAID/Honduras, the supply room manager works
alone, with no support staff. When he is absent, there is no substitute for this
employee, and supply room tasks are not performed. This occurred because
mission management did not ensure that another employee was trained to
substitute in this position. This situation violates the internal control principles
outlined in the above criteria. Having one employee with complete control of
assets makes it more difficult to detect any possible irregularities in the
accounting for the property maintained by that employee. Another individual
should be trained to substitute when the supply room manager is absent.

Additional criteria regarding the area of separation of duties is provided in the
General Accounting Office’s Standards for Internal Control in the Federal
Government, which states that no one individual should be allowed to control all
key aspects of a transaction or event. With respect to leases, the employee


                                                                                  9
responsible for selecting houses to become part of the mission’s housing pool is
also responsible for negotiating rental amounts and leases for these houses. This
absence of separation of duties occurred due to an absence of mission
management oversight in this area. The conflicting responsibilities described
above create an unnecessary vulnerability to potential irregularities.

       Recommendation No. 4: We recommend that
       USAID/Honduras implement appropriate separation of duties
       for personnel in property management positions, and train
       alternate personnel to fulfill their duties.

Auction Proceeds Should Be
Immediately Deposited in Bank Accounts

The General Accounting Office’s Standards for Internal Control in the Federal
Government states that organizations should limit access to assets such as cash
which might be vulnerable to risk of loss or unauthorized use. In our opinion,
compliance with this guidance would require that cash receipts from auctions be
immediately deposited into a bank account to minimize the risk of loss or theft.
However, net proceeds from mission excess property auctions were not being
deposited immediately to the mission’s local bank account. Instead, net proceeds
from the auctions held during the audit period were being stored in the mission
safe. In April 2002, the local currency equivalent of approximately $36,000 from
the February 2002 auction was being held in the mission safe. This occurred due
to the absence of mission management oversight in this area. The mission
employee responsible for custody of these funds stated that auction proceeds were
left in the mission safe until auction expenses are paid from the proceeds, and that
these expenses are to be paid in cash. As a result, the funds held at the mission
were subject to loss or theft, and interest that could offset the local currency’s
devaluation against the U.S. dollar was lost. The mission should deposit auction
proceeds into its local bank account immediately after an auction.

       Recommendation No. 5: We recommend that
       USAID/Honduras establish excess property policies and
       procedures to (1) require the immediate deposit of auction
       proceeds into the mission’s local bank account, and (2) pay
       auction expenses from this account.

Annual Physical Inventory of
Supply Room Should Be Done

Foreign Affairs Manual section 6 FAM 226.1 (a) Physical Inventory and
Reconciliation requires physical inventories of all property once per year. Section
6 FAM 226.2 (c) further states that if possible, the individual responsible for
property records maintenance, generally, shall not participate in the physical
inventory count, to maintain adequate separation of duties. However, an annual



                                                                              10
physical inventory of the supply room (expendable property) had not been
performed since 1999. Such an inventory would involve reconciliation between
the physical inventory count and property record balances. The extra workload
resulting from Hurricane Mitch activities was stated to have prevented the
inventory from being performed. However, in our opinion, this is not a
reasonable explanation. It appears that the absence of mission management
oversight in this area permitted inventories to not be performed. The lack of
physical inventories allows missing items, and those improperly accounted for, to
go undetected. In our physical inventory of 104 categories of supply room items,
18 percent were not within plus or minus 5 percent of the quantity listed on the
inventory report. A physical inventory should be done this fiscal year.

       Recommendation No. 6: We recommend that
       USAID/Honduras conduct a supply room physical inventory
       this fiscal year, and annually thereafter. These inventories
       should be performed by someone other than the supply room
       manager.

Motor Pool Operations Need
More Effective Management

ADS 536.3.14.1 (c) and (d) Use and Control of Official Vehicles – Mission
Records and Reports requires that the motor pool prepare monthly reports on
Automobile Operating Expenses (Form AID 5-237) and periodic reports on
Dispatch Analysis (AID 540-3). These reports give information on vehicle usage
and maintenance expenses. The motor pool supervisor stated that these reports are
not being prepared. Some alternative reports on vehicle usage and expenses were
being prepared but were not considered by the acting Executive Officer to be
useful as management tools. As a result, the mission does not have the required
information to manage the efficiency of its fleet of motor pool vehicles. To
illustrate, our analysis of fuel usage rates for a judgmentally selected sample of
six vehicles for the month of February 2002 showed that the vehicles had fuel
usage rates ranging 7 to 10 miles per gallon, primarily in city driving. However,
gas mileage information obtained from a publicly available source on the
particular models used by the mission showed that city gas mileage should be
from 12 to 17 miles per gallon. Though there are many possible explanations, this
variance helps show why monitoring of fuel efficiency is needed. Preparation of
the required reports by the motor pool supervisor would facilitate the regular
performance of such monitoring.

       Recommendation No. 7: We recommend that
       USAID/Honduras comply with USAID regulations regarding
       the preparation of motor pool reporting and monitor the
       efficiency of its motor pool operations.




                                                                            11
Mission Employment
Panels Were Not Representative

USAID Acquisition Regulation (AIDAR) Appendix J, section 4. (b) Limitations
on Personal Service Contracts regarding Foreign Service National employees,
states that they may participate in personnel selection matters but may not be
delegated authority to make a final decision on personnel selection. However,
mission managers stated that, in the past, many review panels to hire new Foreign
Service National (FSN) personnel did not include any U.S. Direct Hire (USDH)
personnel. Our review of available records for new personnel hired during the
audit period showed that half of the review panels for new FSN personnel were
made up entirely of FSN personnel. This was caused by an absence of mission
management oversight. As a result, in these cases, no USDH personnel were
involved in the hiring of personnel, one of the most critical management functions
in the mission. During our audit the mission drafted, but had not finalized, a new
policy regarding the composition of employment review panels. They stated that
the new policy will require that USDH personnel be members of all future
employment review panels.

       Recommendation No. 8: We recommend that
       USAID/Honduras implement policies and procedures to
       include U.S. Direct Hire personnel on all personnel hiring
       boards.

Better Monitoring
Needed for Personal Phone Usage

Foreign Affairs Manual section 5 FAM 513.1 Local Calls specifically limits the
nature of phone calls which can be made from an office phone and generally states
that all personal calls should be brief. An analysis was performed regarding personal
calls made by mission employees from office phones. Mission phone records for the
month of February 2002 were obtained and it was determined that there were 101
employees, each of whom had an individually identifiable record of phone usage.
For audit purposes, we interpreted a brief call to be 10 minutes or less. The analysis
showed that 65 employees made no personal phone calls in excess of 10 minutes,
and 26 employees made 5 or less phone calls exceeding 10 minutes during this
period. However, 9 employees made more than 5 personal calls in excess of 10
minutes. The highest total of personal calls was 14 phone calls, and 65 minutes was
the longest duration phone call. In summary, the majority of personnel do not abuse
the use of office telephones. However, several employees used a material amount of
work hours making personal phone calls, which is a misuse of government
resources. This resulted from an absence of management oversight in this area.




                                                                                12
        Recommendation No. 9: We recommend that
        USAID/Honduras notify employees of the regulatory
        limitations on the acceptable use of office telephones.

Cellular Phone
Policy Should Be Reviewed

Foreign Affairs Manual section 5 FAM 513.6-2 Cellular Telephones at Post states
that the use of cellular phones is acceptable, but also states that the cost of cellular
phone service must be evaluated when implementing their use. We reviewed the
mission’s cellular phone billings for the period November 29, 2001 to February
28, 2002. This analysis showed that many USDH personnel and supervisory-level
FSN staff were provided cellular phones. However, we did not find evidence that
the mission conducted an evaluation to determine those employees that needed a
cellular phone. As a result, there may not be a valid business purpose for
providing cellular phones to all these personnel. The basic fees for providing
cellular phone service for these staff was approximately $3,006 for the four-
month period reviewed, resulting in an annualized rate of approximately $9,000,
excluding call charges. If cell phones were provided only to the mission’s seven
motor pool drivers, basic fees on an annual basis would be limited to
approximately $2,200, resulting in an annual savings of about $6,800.

        Recommendation No. 10: We recommend that
        USAID/Honduras conduct an analysis to determine those
        personnel requiring cellular phones for their work duties and
        limit mission-provided cellular phones to those employees.

Policy for Calling Card
Usage Should Be Established

Automated Directives System 633 Long Distance Calling Policy and Telephone
System Information applies to USAID/Washington and states that missions are
encouraged to develop policy and guidelines for their staff. We did not find a
mission policy in this area. The mission’s long distance records for two months
were analyzed. This analysis showed that the mission has one direct phone line
through the U.S. Embassy. This direct line enables the mission to make calls to
the Washington, D.C. metropolitan area as U.S. local calls, and make long
distance calls using calling cards as if they were made from the U.S. However,
the audit showed that the mission did not always use this service. This occurred
because mission personnel stated that this line was not always available when
needed, and that calls were urgent and could not wait until the line was available.
Due to its low expense, our opinion is that the mission should use this direct line
whenever feasible. The mission uses AT&T calling cards for making long
distance calls outside of the Washington, D.C. area using the direct U.S. Embassy
line, and for making calls to the U.S. directly from Honduras. A judgmental



                                                                                  13
                 sample of calls showed that calls made through the U.S. Embassy line using the
                 AT&T calling card were billed at an average rate of $1.28 per minute (at rates
                 ranging from $0.92 to $2.14 per minute), while calls made from Honduras with
                 this card averaged $5.09 per minute (at rates ranging from $2.44 to $5.29 per
                 minute). Publicly available information showed that calling cards are available
                 with U.S. calling rates from $0.04 to $0.08 per minute. Using a rate of $0.15 per
                 minute, our calculations showed that the mission could save approximately
                 $24,000 per year by limiting all calls to the U.S. Embassy direct line. These
                 savings could be achieved by either negotiating a more competitive rate with
                 AT&T or switching to a more economical calling card provider. In addition, this
                 analysis showed that AT&T billed the mission in whole minutes instead of the
                 actual times of the calls. Fractional minutes can add substantial time to the bill.

                        Recommendation No. 11: We recommend that
                        USAID/Honduras establish a mission policy regarding long
                        distance telephone calls, to include a requirement that the U.S.
                        Embassy direct line be used for calls to the U.S., except in
                        extraordinary circumstances.




Management       USAID/Honduras agreed with the recommendations in this report, and management
Comments and     decisions have been made for Recommendation Nos. 1 and 2, and 4 through 11.
Our Evaluation   The Office of Management Planning and Innovation will determine final action after
                 Recommendation Nos. 1, 2, 7, 9, and 11 have been implemented. Final actions have
                 been taken on Recommendation Nos. 4, 5, 6, 8 and 10. Those recommendations are
                 closed upon issuance of this report. Recommendation Nos. 3 remains open.

                 Management comments were included in their entirety in Appendix II.




                                                                                               14
                                                                                      Appendix I


Scope and
              Scope
Methodology
              The Regional Inspector General/San Salvador conducted an audit of
              USAID/Honduras’ Executive Office (EXO) operations. The audit was performed
              in accordance with generally accepted government auditing standards at
              USAID/Honduras from April 1 to 26, 2002.

              The audit examined USAID/Honduras’ EXO operations in procurement, leases and
              maintenance, warehouse and supply room, motor pool and personnel for the period
              April 1, 2001 to March 31, 2002. It did not cover any other USAID/Honduras
              EXO operations.

              We used statistical sampling techniques to draw most of the samples used in this
              audit. A 95 percent confidence level with plus or minus 4 percent precision limit
              and expected occurrence rate of 5 percent was used for all samples, except for a 5
              percent precision limit used for the warehouse sample. In addition, we
              judgmentally selected some items based upon their value. In these instances, the
              items selected judgmentally were excluded from the respective populations of
              transactions prior to determining sample sizes.

              For procurements, this resulted in a sample of 50 vendors, in addition to 15
              judgmentally selected vendors. The sample of warehouse items was 60 categories
              of property. In the mission’s supply room 75 property categories made up the
              sample, in addition to the 21 categories that were judgmentally selected. One
              hundred percent reviews were performed for leases and motor pool.

              We assessed the mission’s risk exposure and control effectiveness over EXO
              processes in procurement, leases and maintenance, warehouse and supply room,
              motor pool and personnel. We interviewed USAID/Honduras officials and
              reviewed the mission’s October 2001self-assessment of its compliance with the
              Federal Manager’s Financial Integrity Act of 1982. The following mission
              controls over procurement, leases and maintenance, warehouse and supply room,
              motor pool and personnel were then assessed:

              Procurements:

              •   Requests were documented by requisitions.

              •   Work orders were approved by the Executive Officer prior to preparation of
                  purchase orders.

              •   The Executive Officer approved all purchase orders.

              Leases and maintenance:


                                                                                            15
                                                                       Appendix I


•   All housing was approved by the Regional Security Officer.

•   Housing was approved by the interagency housing board.

Warehouse and Supply Room:

•   Annual physical inventory was performed.

•   Property movements were controlled through the use of work orders,
    purchase orders, receiving reports, and disposal reports.

Motor pool:

•   Requisitions were used of for the purchase of gas.

•   Vehicle mileage was monitored for trips.

•   Vehicle field trip logs were used for trips outside Tegucigalpa.

•   Official forms were used to reserve a vehicle.

•   A maintenance and a permanent file was maintained for each vehicle in the
    motor pool.

Methodology

The audit objective was to determine if USAID/Honduras’ Executive Office
operations were performed in accordance with USAID policies and applicable
laws and regulations. Specifically we reviewed EXO operations in procurement,
leasing, warehouse and supply room, motor pool and personnel.

In examining procurement, we used queries developed by USAID/Honduras’
Chief Accountant to obtain from the Mission Accounting and Control System
(MACS) a list of all procurement actions initiated by USAID/Honduras during
the period April 1, 2001 to March 31, 2002 and sorted this list by agent code to
determine all procurements made by vendor for the period under audit.

In examining procurements, we reviewed a random sample of procurements for
50 vendors during the period under audit. In addition, we reviewed a judgmental
sample of 15 vendors that had received blanket purchase agreements (BPAs)
based upon a specific request by mission management that these procurements
be reviewed. The population of all vendors receiving procurements during the
audit period and the sample of vendors and vendors receiving BPAs we reviewed
are compared in the following table:



                                                                            16
                                                                       Appendix I

         Population                              Number         Amount
                                                                (millions)
         Vendors                                 97             $1.1
         Total                                   97             $1.1

         Sample                                  Number         Amount
                                                                (millions)
         Vendors                                 50             $0.45
         Vendors with BPAs                       15             $0.11
         Total                                   65             $0.56

For each sample item, we reviewed documentation and interviewed
USAID/Honduras personnel to determine:

•   Were there appropriate procurement specifications?

•   Was there competition in the procurement process, as required?

•   Was there documentation to support the use of simplified acquisition
    procedures?

•   Were purchase order forms correctly prepared and approved?

•   Was there evidence of the receipt of the items procured?

In examining leases, we obtained a list of all active leases in force during the
period under audit and compared this list against the physical files of leases in
the Executive Office. We determined that there was a total of 22 active leases in
force for the period under audit. We reviewed 100 percent of the lease files. We
reviewed each file to determine:

•   If there was a record of the procurement process for each lease.

•   Whether the lessor was a resident of the host country and that no off-shore
    lease payments were made.

•   Whether each prospective leased property underwent an inspection by the
    Regional Security Office prior to the execution of the lease.

•   If required security upgrades were lessor-paid and a condition of the
    execution of the lease.

•   Whether periods of the lease were for five-year terms.




                                                                             17
                                                                      Appendix I

•   If employees were assigned housing corresponding to their rank and family
    size.

For the warehouse and supply room we obtained separate samples. For the
warehouse, we obtained a list of all non-expendable property from the warehouse
supervisor that included items purchased with operating expense and trust funds.
From this list we excluded those items that were not physically located in the
warehouse. The items excluded were those in use at the mission or in leased
residences. The resultant list was comprised of 203 inventory categories, valued
at $5.9 million, which was our audit population. The sample size for this
population was determined to be 60 categories, valued at $629,438. We
reviewed each sample category to determine:

•   Whether mission inventory records were in agreement with the physical
    inventory count.

•   If the warehouse was secure.

•   Whether good storage practices were generally followed.

•   If bin cards were used, and if they were accurate.

We obtained a list of expendable property, which the mission stores and
maintains in the supply room. From this list we selected 21 categories of
property (valued at $27,531), primarily based on their high value, as a
judgmental sample. After judgmentally selecting these 21 categories, the audit
population consisted of 967 inventory categories, valued at $168,109. A random
sample of 75 categories, valued at $48,159, was drawn from this population.
Each category in this sample and the judgmental sample were reviewed to
determine:

•   Whether mission inventory records were in agreement with the physical
    inventory count.

•   If the supply room was secure.

•   Whether good storage practices were generally followed.

•   If bin cards were used, and if they were accurate.

Motor pool operations included 22 vehicles and seven drivers, in addition to the
motor pool supervisor and the driver for the Mission Director. This total reflects
staff on-board at the time of the audit because in February 2002 four drivers were
released. We obtained the permanent and maintenance files for each vehicle, and
conducted a 100 percent review of these records. We reviewed each vehicle file
for the following documentation:


                                                                            18
                                                                     Appendix I


•   Work order forms for vehicle maintenance.

•   USAID Form 5-197 Motor Vehicle Record, which contains acquisition and
    disposition data on each vehicle.

•   Purchase orders, receiving reports, and purchase invoices.

•   Import/customs documentation, vehicle registration, and accident reports.

Regarding the drivers, we reviewed 100 percent of the driver payroll records and
travel vouchers for the approximate six-month period prior to fieldwork. We
looked for the following:

•   Fair distribution of overtime duty among the drivers.

•   Fair distribution of temporary duty (TDY) among the drivers to locations
    outside Tegucigalpa.

Personnel operations were also reviewed. We interviewed the Acting Executive
Officer, outgoing EXO Administrative Assistant (Acting Deputy Executive
Officer), and a newly hired EXO Personnel Specialist. Mission managers of
departments with personnel awaiting employment termination were also
interviewed. We obtained a list of all personnel changes made during the audit
period. Our aim was to determine:

•   Past and present mission hiring and personnel policies and procedures.

•   Mission documentation of its hiring and personnel policies and procedures.

•   If departing mission employees were sufficiently tasked with work duties.

•   If departing mission employees posed a risk to mission operations.

In performing the audit tests described above, we considered non-compliance
exceeding 5 percent of the cases reviewed (by number) to represent material non-
compliance.




                                                                             19
                                                                                      Appendix II



Management
Comments


         DATE:          August 30, 2002

         TO:            Steven Bernstein, RIG/A – San Salvador

         FROM:          Paul Tuebner, Mission Director

         SUBJECT:       DRAFT AUDIT REPORT
                        USAID/Honduras Executive Office Functions

         This memorandum represents USAID/Honduras (USAID/H) comments to the subject
         draft audit report and on actions taken to implement the recommendations contained
         therein.

         Personnel from RIG/San Salvador debriefed the Mission Director of USAID/Honduras
         on a draft of this audit on July 31, 2002. Also present at the debriefing were the
         USAID/Honduras Deputy Director, the USAID/Honduras Acting Controller, and the
         new, permanently assigned Executive Officer.

         The Mission accepts all the audit recommendations as valid [WITH TWO FACTUAL
         EXCEPTIONS SHOWN IN CAPS AND BRACKETS BELOW], and manifests its
         intent to resolve all of the recommendations. USAID/Honduras considers that five of
         the eleven recommendations have already been resolved, and recommends them below
         for closure. The Mission will endeavor to close the remaining six recommendations no
         later than January 31, 2003.

         Recommendation No. 1.: USAID accepts the principle that ordering levels for
         restocking expendable property be established. The Mission operates an automated
         Expendable Supply system which contains an electronic field for normative minimum
         levels. However the database program is not refined enough to issue periodic reports of
         stocks which have reached the minimum level. The supply room supervisor states that
         he stays abreast of the inventory level as he posts the decreases in stock into the system,
         and transfers this information from his memory into periodic stock orders. However,
         the stock levels which fall below minimum levels are not automatically accumulated in
         an organized summary report in the program as ideally would be the case. EXO will
         work to enhance or replace the expendable supply program to automate periodic
         requests for EXP orders. Estimated resolution date is January 31, 2002.

         Recommendation No. 2: [THE DRAFT GIVES THE SIZE OF LEASED USAID
         BUILDING AS 55,159 SQUARE FEET. THIS FIGURE CORRECTLY DESCRIBES



                                                                                              20
                                                                             Appendix II

THE BUILDING’S NET SQUARE FOOTAGE ONLY. THE GROSS SQUARE
FOOTAGE OF THE LEASED OFFICE BUILDING IS 74,293 SQUARE FEET] The
RIG/A recommendation to consider alternative office space coincides with a verbal
recommendation from O/SEC that the mission consider relocating from its Avenida La
Paz location across from the U.S. Embassy in Tegucigalpa, in order to achieve a greater
setback from the street. Factors to be considered in evaluating relocation include: price,
actual setback versus security standards and relative risk levels, distance from the U.S.
Embassy, the U.S. Ambassador’s outlook on waiver of collocation from the Chancery
of a future USAID location, and the effect on U.S. interests of USAID vacating a
building immediately across from the Embassy. USAID has initiated a market survey
for leased office property in Tegucigalpa. Results indicate that price per square foot for
the Avenida La Paz location is low in relation to survey averages. However, USAID
recognizes that, in the post-reconstruction period, its current Tegucigalpa facility is as
much as 30 percent underutilized. USAID is considering savings which could result by
inviting other USG or USAID-funded entities to share the current Avenida La Paz
location. Though potential vacant land is thought to be available, funding for
acquisition of land and construction of a building for USAID in Honduras has not been
identified. With the arrival of the new U.S. Ambassador to Honduras in September,
USAID will continue consultations on the relocation question. The mission intends to
have completed these consultations and its market survey by the end of December,
2002.

Recommendation No. 3: The information to track utility usage rates and establish
normal usage rates is available. The EXO intends to develop normal usage rates,
publish them to residential occupants , and notify individual residents of their actual
consumption by October 31, 2002. EXO will then follow up by consulting on possible
changes in employee utility consumption habits, and investigating any suspected cases
of utility theft, or problems with the houses.

Recommendation No. 4. Proper separation of duties has been implemented in the
property management sections. An expendable supplies inventory was conducted by
the Accountable Property Officer in June 2002, i.e. by an individual other-than the
storekeeper of expendable supplies. EXO has identified two qualified individuals who
would be available to substitute for the supply room storekeeper during future periods
of absence from work. With regard to leased properties, the EXO, the Deputy Mission
Director, and the Interagency Housing Board will play an active role in selecting
houses to become part of the mission’s housing pool. These vulnerabilities being
addressed, this recommendation should be closed.

Recommendation No. 5: USAID has established a policy to require immediate deposit
of auction proceeds to the mission's local bank account, and to pay sales expenses from
this account. This policy has been communicated to the USAID/Controller Cashier.
This action is facilitated by the recent policy change whereby proceeds of OE property
sale are to be retained at the mission, and no longer must be deposited to a
USAID/Washington account. This recommendation should thus be closed.




                                                                                    21
                                                                            Appendix II

Recommendation No. 6: The first physical inventory of the USAID/Tegucigalpa supply
room since 1999 was conducted in June, 2002. The inventory was conducted by the
Accountable Property Officer from the Warehouse, and not by the storekeeper. The
inventory resulted in an net overage of approximately one-half of one percent in dollar
value. The new EXO also has conducted a spot check, and plans to institute spot
checks as a regular means of supplementing EXP inventory control. With the inventory
finalized and a follow-on inventory planned for September 30, 2002, this
recommendation should be closed.

Recommendation No. 7: [COMMENT: RECORDS AVAILABLE TO THE USPSC
EMPLOYEE CURRENTLY ACTING AS MOTOR POOL SUPERVISOR INDICATE
FUEL ECONOMY IN THE PASSENGER MOTOR POOL TO RANGE BETWEEN
9.5 AND 18.4 MPG FOR THE PERIOD OCTOBER, 2001 – APRIL, 2002,
SIGNIFICANTLY BETTER THAN THE 7 TO 10 MPG FOUND BY RIG/A IN THE
FEBRUARY SAMPLE.] To provide context for the Mission’s response to this audit
recommendation, it is noted that the mission found it necessary to terminate the
employment of the FSN motor pool supervisor who had been employed at the time of
the audit, for reasons independent of the audit. Nonetheless, USAID/Honduras is
undertaking measures to insure compliance with the regulations on reporting and
monitoring of its vehicle fleet. Three annual motor vehicle reports required by
USAID/Washington are currently being prepared. Daily trip tickets are kept. The
mission has made plans for on-the-job training of the acting USPSC Motor Pool
supervisor (to include the Operating Expense Report, and Dispatch Analysis) in a
regional mission, while simultaneously taking action to hire a new motor pool
supervisor. It is anticipated that the skills for preparation of Dispatch Analysis can be
conveyed to a new Motor Pool Supervisor in time for preparation of an analysis by
December, 31, 2002.

Recommendation No. 8: On July 16, 2002, the USAID/Honduras Mission Director
made effective a new Mission Order requiring participation by the USDH Office Chief
on each selection panel for locally engaged staff. Under the policy, there shall be three
voting members on each selection panel. The panels may also include other USDH,
USPSC and FSN employees. This recommendation should be closed.

Recommendation No. 9: USAID Honduras will seize this opportunity to encourage
employees and supervisors to monitor and regulate personal use of office telephones.
The Mission intends to issue a Mission Notice citing the RIG/A findings of this audit
report to illustrate that some employees, although a minority, have been observed to be
using a material amount of work hours making personal phone calls. It is anticipated
that the recommendation can be closed by September 15, 2002.

Recommendation No. 10: The USAID Mission has conducted an analysis of personnel
requiring cellular telephones for the their work duties, and has reduced the number of
activated cell phones in the mission from 31 at the time of the audit to 22. Thus, the
recommendation should be closed. It is also noted that USAID/Honduras is taking




                                                                                   22
                                                                              Appendix II

further steps to analyze alternative cellular telephone calling plans and payment modes
with the goal of achieving further cost savings.

Recommendation No. 11: A Mission Notice has been issued to illustrate to staff the
potential cost savings available by greater use of the International Voice Gateway
(IVG) line on the U.S. Embassy Switchboard for calls to the Washington, DC area and
other areas in the United States. The Mission also plans to raise awareness of cost-
savings potential of dialing Embassy to Embassy using IVG. Account is taken,
however, of the fact that the IVG line is not always available. In order to reduce the
unacceptably high per minute charges incurred by using the current AT&T post-paid
calling cards, the Mission has taken the decision to purchase and issue (to individual
employees for official calls only) prepaid calling cards currently available to the public.
The mission is expected to see a drop of as much as 90 percent in the cost of calls to the
U.S. when such cards are used in conjunction with the IVG line to call U.S. locations
outside the Washington, DC dialing area. The cards to be ordered may also be used
with the AT&T USA Direct Service available in Honduras. Though such uses will not
result in as great a cost savings, this method will provide a backup mode of calling
when the IVG circuits are fully loaded, still lower in cost than the current AT&T post
paid calling cards. The new pre-paid cards will be purchased by the end of
September, 2002.




                                                                                     23
